No. 19-1166

 

IN THE

Supreme Court of the United States

DINE CITIZENS AGAINST RUINING OUR ENVIRONMENT,
SAN JUAN CITIZENS ALLIANCE; AMIGOS BRAVOS;
SIERRA CLUB; AND CENTER BIOLOGICAL DIVERSITY,

Petitioners,
v.

NAVAJO TRANSITIONAL ENERGY COMPANY, LLC;
ARIZONA PUBLIC SERVICE COMPANY;
BUREAU OF INDIAN AFFAIRS; U.S. DEPARTMENT
OF THE INTERIOR; U.S. OFFICE OF SURFACE MINING
RECLAMATION AND ENFORCEMENT; U.S. BUREAU OF
LAND MANAGEMENT; DAVID BERNHARDT, IN HIS
OFFICIAL CAPACITY AS SECRETARY OF THE INTERIOR;
U.S. FISH AND WILDLIFE SERVICE,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,993 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 4, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
